APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(April 24, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Order Granting Defendant H&M
Hennes & Mauritz L.P.’s Motion to
Dismiss in the United States District
Court Central District of California
(June 3, 2014) . . . . . . . . . . . . . . . App. 18
Appendix C Order Granting Defendant’s Motion to
Dismiss Plaintiff’s First Amended
Complaint in the United States
District Court Central District of
California
(June 29, 2017) . . . . . . . . . . . . . . App. 22
Appendix D Order Denying Defendant H&M
Hennes & Mauritz L.P.’s Motion for
Attorney’s Fees and Denying Plaintiff
Malibu Textiles, Inc.’s Motion for
Reconsideration in the United States
District Court Central District of
California
(July 22, 2014). . . . . . . . . . . . . . . App. 28
Appendix E Memorandum in the United States
Court of Appeals for the Ninth Circuit
(September 13, 2016) . . . . . . . . . App. 33

ii
Appendix F Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Ninth Circuit
(May 31, 2019). . . . . . . . . . . . . . . App. 37
Appendix G Statutory Provisions Involved . . App. 39

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-55983
D.C. No. 2:14-cv-04054-R-MAN
[Filed April 24, 2019]
______________________________________
)
MALIBU TEXTILES, INC., a New York
corporation,
)
Plaintiff-Appellant,
)
)
v.
)
)
LABEL LANE INTERNATIONAL, INC.,
)
a California Corporation; ENTRY, INC.,
)
DBA ALT B., a California Corporation, )
Defendants-Appellees.
)
______________________________________ )
No. 17-55984
D.C. No. 2:14-cv-01018-R-E
______________________________________
MALIBU TEXTILES, INC., a New York
)
corporation,
)
Plaintiff-Appellant,
)
)
v.
)
)
H&M HENNES & MAURITZ, L.P.,
)

App. 2
a New York limited partnership,
Defendant-Appellee.
__________________________________

)
)
)

No. 17-56531
D.C. No. 2:14-cv-01018-R-E
___________________________________
MALIBU TEXTILES, INC.,
)
a New York corporation,
)
Plaintiff-Appellee,
)
)
v.
)
)
H&M HENNES & MAURITZ, L.P.,
)
a New York limited partnership,
)
Defendant-Appellant.
)
___________________________________ )
OPINION
Appeals from the United States District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding
Argued and Submitted January 7, 2019
Pasadena, California
Filed April 24, 2019
Before: A. Wallace Tashima and Paul J. Watford,
Circuit Judges, and Jack Zouhary,* District Judge.
Opinion by Judge Zouhary

*

The Honorable Jack Zouhary, United States District Judge for
the Northern District of Ohio, sitting by designation.

App. 3
SUMMARY**
Copyright
The panel reversed the district court’s dismissal of
two copyright infringement actions, dismissed a crossappeal regarding attorney fees as moot, and remanded.
Malibu Textiles claimed that defendants infringed
its copyrights for two floral lace designs. The panel held
that, on remand following prior appeal, Malibu
sufficiently alleged ownership of valid, registered
copyrights. Malibu also successfully pled striking
similarity between its designs and defendants’ designs.
The panel further held that the district court abused its
discretion in denying Malibu leave to amend its
allegations of access for a theory of substantial
similarity.
The panel dismissed as moot one defendant’s crossappeal from the district court’s denial of its motion for
attorney fees.
COUNSEL
Stephen Doniger (argued), Frank Gregory Casella, and
Scott A. Burroughs, Doniger/Burroughs APC, Venice,
California, for Plaintiff-Appellant.
Neal J. Gauger (argued) and Staci Jennifer Riordan,
Nixon Peabody LLP, Los Angeles, California, for
Defendants-Appellees.

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 4
OPINION
ZOUHARY, District Judge:
INTRODUCTION
Five years ago, Plaintiff-Appellant Malibu Textiles
filed these copyright infringement lawsuits against
Defendants-Appellees Label Lane International, Entry,
and H&M Hennes & Mauritz (collectively,
“Defendants”), accusing them of illegally copying
Malibu’s lace designs. And for five years, these cases
have languished at the pleading stage. The cases are
now before this Court for a second time, after the
district court again denied leave to amend and
dismissed with prejudice. We again reverse and
remand.
BACKGROUND
In 2014, Malibu sued Defendants for copyright
infringement. Malibu alleges it owns copyrights for two
lace designs, consisting of flowers, vines, leaves, and
other elements arranged in a pattern. Malibu refers to
these two designs collectively as the Subject Work and
alleges Defendants infringed on both.
The first appeal came after the district court
dismissed the cases with prejudice for failure to state
a claim. This Court reversed, stating that “[d]ismissal
with prejudice is appropriate only if the complaint
‘could not be saved by any amendment.’” Malibu
Textiles, Inc. v. Label Lane Int’l, Inc., 668 F. App’x 803,
803 (9th Cir. 2016) (quoting Leadsinger, Inc. v. BMG
Music Publ’g, 512 F.3d 522, 532 (9th Cir. 2008));
Malibu Textiles, Inc. v. H&M Hennes & Mauritz, L.P.,

App. 5
668 F. App’x 800, 801 (9th Cir. 2016) (same). This
Court concluded that Malibu could fix its Complaints
by adding more allegations of similarity between the
Subject Work and Defendants’ works and how
Defendants had access to the Subject Work. Label
Lane, 668 F. App’x at 803–04; H&M, 668 F. App’x at
801.
On remand, Malibu filed new Complaints1 with
additional similarity allegations, including side-by-side
photos of the Subject Work and Defendants’ works. But
the Malibu attorneys mistakenly omitted new access
allegations. When they realized their error, the parties
filed a joint stipulation seeking leave to file amended
versions of the post-remand Complaints. Malibu
included a declaration explaining the mistake and
provided the district court with redlined copies of the
new Complaints with the missing access allegations. In
a one-sentence, handwritten order, the district court
denied leave to amend: “Denied[,] no good cause is
shown.”
Defendants again moved to dismiss, and the district
court again dismissed with prejudice. The district court
determined that most of the similarities between
Malibu’s designs and Defendants’ designs consisted of
non-protectable elements, such as “the natural
appearance of a Bengal Clockvine flower.” The district
court identified differences in the side-by-side images,
concluding that the designs were not strikingly similar.

1

In the Label Lane case, Malibu filed its Second Amended
Complaint. In the H&M case, Malibu filed its First Amended
Complaint.

App. 6
The district court further held that Malibu failed to
plausibly allege access, without mentioning whether
the proposed amendments would have cured this
deficiency. H&M moved for attorney fees, which the
district court denied. These appeals followed.
DISCUSSION
This Court reviews dismissals under Federal Civil
Rule 12(b)(6) de novo, accepting the plaintiff’s
allegations as true and construing them in the light
most favorable to the plaintiff. Zucco Partners, LLC v.
Digimarc Corp., 552 F.3d 981, 989 (9th Cir. 2009). At
this stage, a complaint’s factual allegations need not be
detailed. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007). They “must be enough to raise a right to relief
above the speculative level” and to “state a claim to
relief that is plausible on its face.” Id. at 555, 570.
To state a claim for copyright infringement, Malibu
“must plausibly allege two things: (1) that [it] owns a
valid copyright in [the Subject Work], and (2) that
[Defendants] copied protected aspects of [the Subject
Work]’s expression.” Rentmeester v. Nike, Inc., 883 F.3d
1111, 1116–17 (9th Cir. 2018).
Ownership
Although the district court based its decision on the
copying element, Defendants argue this Court should
affirm because Malibu failed to allege ownership of a
registered copyright in the Subject Work. See Livid
Holdings Ltd. v. Salomon Smith Barney, Inc., 416 F.3d
940, 950 (9th Cir. 2005) (“This court can affirm the
district court’s dismissal on any ground supported by
the record, even if the district court did not rely on the

App. 7
ground.”). To plead ownership, Malibu must plausibly
allege it owns a valid copyright registration for its
work. See Unicolors, Inc. v. Urban Outfitters, Inc., 853
F.3d 980, 988 (9th Cir. 2017) (“[Plaintiff] was required
to show registration as an element of an infringement
claim.”); see also Fourth Estate Pub. Benefit Corp. v.
Wall-Street.com, LLC, 139 S. Ct. 881, 887 (2019)
(“[A]lthough an owner’s rights exist apart from
registration, registration is akin to an administrative
exhaustion requirement that the owner must satisfy
before suing to enforce ownership rights.”) (citations
omitted).
Malibu alleges it owns “two original twodimensional artworks”—Designs 1967 and 1717—
which are registered with the United States Copyright
Office under numbers VA 1-159-155 and VA9230008.
But Defendants argue that Malibu’s case is not based
upon either of these copyrights, but rather upon some
third work called the “Subject Work.”
Defendants mischaracterize Malibu’s allegations.
According to Malibu, Design 1967 derives from Design
1717. The designs are “essentially the same artwork”
with only “slight variations” due to differences in the
machinery used in production. The post-remand
Complaints allege that Malibu owns valid, registered
copyrights in both Design 1967 and Design 1717, and
that the infringement action is based on the original
artistic expression owned by Malibu and reflected in
both designs. Malibu is entitled to protect all
components of that artistic expression—both derivative
and original. See DC Comics v. Towle, 802 F.3d 1012,
1023–25 (9th Cir. 2015). Malibu plausibly alleges it

App. 8
owns registered copyrights for the artwork in Designs
1967 and 1717; its use of a shorthand label for that
artwork does not change that fact.
And contrary to Defendants’ assertions, Malibu was
not required to include images of Design 1717, a
complete deposit of Design 1967, or registration
materials for either Design in the Complaints to
plausibly allege ownership. See Rentmeester, 883 F.3d
at 1117–18. As for Defendants’ arguments about their
foreign copyright registrations, those defenses are
better suited for summary judgment. At the pleading
stage, Malibu successfully alleged ownership of valid,
registered copyrights.
Copying
To allege actionable copying, Malibu was required
to plead facts plausibly showing either (1) “that the two
works in question are strikingly similar,” or (2) “that
[the works] are substantially similar and that
[Defendants] had access to the [Subject Work].” Label
Lane, 668 F. App’x at 803 (citing Three Boys Music
Corp. v. Bolton, 212 F.3d 477, 481, 485 (9th Cir. 2000));
H&M, 668 F. App’x at 801 (same). Where two works
are strikingly similar, access may be inferred.
Unicolors, 853 F.3d at 987–88; see also Rentmeester,
883 F.3d at 1124 (“[I]f the similarities are ‘striking’
enough . . . such similarities can be sufficient on their
own to establish that the defendant must have had
access to the plaintiff’s work.”). Thus, a plaintiff must
separately plead access only when alleging substantial
similarity, not when alleging striking similarity. See,
e.g., Three Boys Music, 212 F.3d at 485; Baxter v. MCA,
Inc., 812 F.2d 421, 423–24 & n.2 (9th Cir. 1987); see

App. 9
also Astor-White v. Strong, 733 F. App’x 407, 407 (9th
Cir. 2018).
“In assessing whether particular works are
substantially similar, or strikingly similar, this Circuit
applies a two-part analysis: the extrinsic test and the
intrinsic test.” Unicolors, 853 F.3d at 985. At the
pleading stage, this Court considers only the extrinsic
test. See Williams v. Gaye, 895 F.3d 1106, 1119 (9th
Cir. 2018). The extrinsic test “is an objective
comparison of specific expressive elements; it focuses
on the articulable similarities between the two works.”
L.A. Printex Indus., Inc. v. Aeropostale, Inc., 676 F.3d
841, 848 (9th Cir. 2012) (internal quotation marks and
citation omitted). The extrinsic test consists of two
steps.
Step 1: Protectable Elements
First, the reviewing court “must ‘filter out’ the
unprotectable elements of the plaintiff’s work,”
Rentmeester, 883 F.3d at 1118 (citation omitted), and
determine the breadth of copyright protection for the
protectable elements, id. at 1120. Although certain
elements—like elements found in nature—may not be
protectable individually, “[o]riginal selection,
coordination, and arrangement” of unprotectable
elements may be protectable expression. L.A. Printex,
676 F.3d at 849. A combination of unprotectable
elements is eligible for copyright protection “if those
elements are numerous enough and their selection and
arrangement original enough that their combination
constitutes an original work of authorship.” Satava v.
Lowry, 323 F.3d 805, 811 (9th Cir. 2003).

App. 10
For protectable elements, this Court “distinguishe[s]
between ‘broad’ and ‘thin’ copyright protection based on
the ‘range of expression’ involved.” Williams, 895 F.3d
at 1120 (quoting Mattel, Inc. v. MGA Entm’t, Inc., 616
F.3d 904, 913–14 (9th Cir. 2010)). “[T]he greater the
range of creative choices that may be made, the
broader the level of protection that will be afforded to
the resulting [work].” Rentmeester, 883 F.3d at 1120.
“We review de novo the district court’s determination
as to the scope of copyright protection.” Mattel, 616
F.3d at 914 (citation omitted).
Here, although copyright law does not protect the
natural appearance of a Bengal Clockvine flower, see
Satava, 323 F.3d at 813, it does protect the original
“selection, coordination, and arrangement” of floral
elements in a lace pattern, Label Lane, 668 F. App’x at
803 (citing L.A. Printex, 676 F.3d at 850); H&M, 668 F.
App’x at 801 (same). The Subject Work’s copyright
protection is broad—not thin—because there is “‘a wide
range of expression’ for selecting, coordinating, and
arranging floral elements in stylized fabric designs.”
L.A. Printex, 676 F.3d at 850 (citation omitted). After
all, “there are gazillions of ways to combine petals,
buds, stems, leaves, and colors in floral designs on
fabric.” Id. at 850–51 (internal quotation marks and
citation omitted).
Step 2: Similarity Comparison
Second, the “protectable elements that remain are
then compared to corresponding elements of the
defendant’s work to assess similarities in the objective
details of the works.” Rentmeester, 883 F.3d at 1118.
“We do not have a well-defined standard for assessing

App. 11
when similarity in selection and arrangement becomes
‘substantial’” or striking, “and in truth no hard-andfast rule could be devised to guide determinations that
will necessarily turn on the unique facts of each case.”
Id. at 1121. “In comparing fabric designs, we examine
the similarities in their objective details in appearance,
including, but not limited to, the subject matter,
shapes, colors, materials, and arrangement of the
representations.” L.A. Printex, 676 F.3d at 849
(internal quotation marks and citation omitted).
Striking Similarity. The first question is whether
Malibu pled striking similarity, which would obviate
the need to plead access. Two works are strikingly
similar when the similarities between them are so
great that they are “highly unlikely to have been the
product of independent creation.” Rentmeester, 883
F.3d at 1124.
Here, the similarities between the lace patterns go
well beyond their mutual inclusion of the Bengal
Clockvine flower. The works contain nearly identical
floral, leaf, boteh, and dot elements, and those
elements are arranged in virtually the same way. The
post-remand Complaints state that the patterns are
“identically arranged” and that the elements “are
arranged exactly the same in relation to each other.”
They describe, in detail, some of the similarities
between the patterns. And most importantly, they
provide side-by-side pictures that make the similarities
apparent. See Appendix, infra.
To be sure, the pictures do show some minor
differences between the Subject Work and Defendants’
works, such as in color, netting, and shape curvature.

App. 12
“But a rational jury could find that these differences
result from the fabric-printing process generally and
are ‘inconsequential,’ or could credit [Malibu]’s
assertion that these differences result in part from
‘print[ing] using cruder, lower-quality techniques and
machinery.’” L.A. Printex, 676 F.3d at 851 (second
alteration in original) (citations omitted). Alternatively,
a jury could find these to be knowing modifications,
which could be evidence of willful copying. See Concord
Fabrics, Inc. v. Marcus Bros. Textile Corp., 409 F.2d
1315, 1316 (2d Cir. 1969) (per curiam) (“While the trial
court placed great emphasis on the minor differences
between the two patterns, we feel that the very nature
of these differences only tends to emphasize the extent
to which the defendant has deliberately copied from the
plaintiff.”).
As for the differences pointed out by the district
court in its dismissal order, those appear to result from
the cropping and angle of the images rather than any
real differences in the designs. And to the extent
Defendants contend the similarities are “required by
the medium of lace” and are merely “functional
choices . . . dictated by the lace medium,” those
arguments are better suited for summary judgment,
after discovery and perhaps with the aid of expert
testimony. For this stage, Malibu successfully pled
striking similarity in the post-remand Complaints, and
the district court erred in dismissal on this ground.
Substantial Similarity. But striking similarity was
not the only theory Malibu sought to plead. The next
question is whether the district court erred in denying
Malibu leave to amend its access allegations for a

App. 13
theory of substantial similarity. This Court reviews
denial of leave to amend for abuse of discretion.
Gompper v. VISX, Inc., 298 F.3d 893, 898 (9th Cir.
2002). “Dismissal without leave to amend is improper
unless it is clear, upon de novo review, that the
complaint could not be saved by any amendment.” Id.
(citation omitted). “An outright refusal to grant leave to
amend without a justifying reason is . . . an abuse of
discretion.” Manzarek v. St. Paul Fire & Marine Ins.
Co., 519 F.3d 1025, 1034 (9th Cir. 2008) (citation
omitted).
When pleading substantial similarity, a copyright
infringement plaintiff “must allege facts ‘from which a
reasonable finder of fact could infer that the defendant
had a reasonable opportunity to copy his or her work.’”
Shame on You Prods., Inc. v. Banks, 120 F. Supp. 3d
1123, 1149 (C.D. Cal. 2015) (citation omitted), aff’d,
690 F. App’x 519 (9th Cir. 2017); see also L.A. Printex,
676 F.3d at 846 (“Proof of access requires ‘an
opportunity to view or to copy plaintiff’s work.’”)
(citation omitted). As the prior Panel instructed,
Malibu could meet this pleading requirement by
alleging “a chain of events that linked the protected
pattern with the allegedly infringing patterns, or
provid[ing] sales figures accompanied by dates and
geographic distribution information plausibly showing
access via widespread dissemination.” Label Lane, 668
F. App’x at 804; see also H&M, 668 F. App’x at 801.
Here, the proposed amended Complaints allege
several ways Defendants had access to the Subject
Work. Malibu first alleges that Defendants do business
in California and that they had access to the Subject

App. 14
Work through Malibu’s California showrooms. Malibu
next states that, since 1998, it has produced
“approximately 1 million yards of lace bearing the
Subject Work,” which have been manufactured in “over
twenty mills, including numerous mills in China.”
Those mills’ libraries of patterns, containing the
Subject Work, have since been acquired by other mills,
who in turn “have offered those patterns to customers
without regard to whether those patterns were
protected by copyright law.” Malibu further alleges that
its customers have “sold garments and other products
featuring the Subject Work . . . in the same markets
(domestically and internationally) as Defendants.”
Finally, Malibu specifies several clothing retailers
“operating in the same market as Defendants” that
collectively “have sold hundreds of thousands of
garments featuring reproductions of the Subject Work.”
These allegations, taken as true, plausibly allege
Defendants had reasonable opportunities to view the
Subject Work. See L.A. Printex, 676 F.3d at 848. The
proposed amendments would have sufficiently alleged
access. The district court thus abused its discretion by
denying leave to amend.
Attorney Fees
In its cross-appeal, H&M argues the district court
erred in denying its motion for attorney fees. Because
of the district court errors, H&M is no longer a
prevailing party eligible for attorney fees under 17
U.S.C. § 505, making its cross-appeal moot. See Electro
Source, LLC v. Brandess-Kalt-Aetna Group, Inc., 458
F.3d 931, 941 (9th Cir. 2006).

App. 15
CONCLUSION
It is the responsibility of “the court and the parties
to secure the just, speedy, and inexpensive
determination of every action and proceeding.” Federal
Civil Rule 1. This aspirational goal was not achieved in
these cases. This latest round of appeals added nearly
two years to cases that were already three years old.
And these cases have not advanced beyond the initial
pleading stage. Direction from the earlier appeals was
disregarded, as were the parties’ stipulations to allow
amendments to the Complaints. This Court reverses
the dismissal of the Complaints and remands to allow
the cases to proceed consistent with this Opinion.
The district court judgments in Case Nos. 17-55983
and 17-55984 are REVERSED and REMANDED.
The cross-appeal in Case No. 17-56531 is DISMISSED
as moot.

App. 16
APPENDIX
SUBJECT WORK

LABEL LANE
PATTERN

App. 17
SUBJECT WORK

H&M PATTERN

App. 18

APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CASE NO. CV 14-01018-R
[Filed June 3, 2014]
______________________________________
MALIBU TEXTILES, INC., a New York )
Corporation,
)
)
Plaintiff,
)
)
v.
)
)
H&M HENNES & MAURITZ L.P.,
)
a New York Limited Partnership;
)
and DOES 1–10,
)
)
Defendants.
)
______________________________________ )
ORDER GRANTING DEFENDANT
H&M HENNES & MAURITZ L.P.’s
MOTION TO DISMISS
Plaintiff Malibu Textiles, Inc. (“Malibu”), on
February 10, 2014, filed a copyright and contributory
copyright infringement suit against defendant H&M
Hennes & Mauritz L.P. (“H&M”). H&M filed a motion
to dismiss Malibu’s Complaint on March 25, 2014.
Having been thoroughly briefed by both parties, this

App. 19
Court took the matter under submission on May 6,
2014.
On a motion to dismiss, the trial court takes all
well-pleaded facts in the complaint to be true and
determines whether, based upon those facts, the
complaint states a claim upon which relief may be
granted. Fed. R. Civ. P. 12(b)(6). See Alperin v. Vatican
Bank, 410 F.3d 532, 541 (9th Cir. 2005). To state a
claim, the complaint must contain factual assertions
that make the claimed relief not merely possible, but
“plausible.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009);
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007). Although factual assertions are taken as true,
the court does not accept legal conclusions as true. Id.
A motion to dismiss tests the legal sufficiency of the
claims alleged in the complaint. See Cairns v. Franklin
Mint Co., 24 F. Supp. 2d 1013, 1023 (C.D. Cal. 1998). A
claim is properly dismissed for “lack of a cognizable
legal theory,” “absence of sufficient facts alleged under
a cognizable legal theory,” or seeking remedies to which
plaintiff is not entitled as a matter of law. Balistreri v.
Pacifica Police Dept., 901 F.2d 696, 699 (9th Cir. 1988);
King v. California, 784 F.2d 910, 913 (9th Cir. 1986).
To sustain an action for copyright infringement the
plaintiff must plead either a copyright registration
number or allege it submitted an application to the
copyright office. Reed Elsevier, Inc. v. Muchnick, 559
U.S. 154, 166 (2010). Malibu has failed to plead
ownership with a copyright registration and had failed
this basic requirement to sustain an action.

App. 20
A plaintiff must allege that the infringer either had
access to the plaintiff’s work or that it was widely
disseminated. Nimmer & Nimmer, NIMMER ON
COPYRIGHT § 13.02. Malibu admits the H&M did not
have direct access to its work, nor has Malibu pled
facts sufficient to show the work was widely
disseminated.
In a copyright case based on substantial similarity,
a plaintiff must plead the “sources of alleged
similarity.” Apple Computer, Inc. v. Microsoft Corp., 35
F.3d 1435, 1443 (9th Cir. 2002). To state a claim for
substantial-similarity both an extrinsic and intrinsic
test must be met. Funky Films, Inc. v. Time Warner
Entertainment Co., L.P., 462 F.3d 1072, 1077 (9th Cir.
2006). The extrinsic test focuses on “articulable
similarities” between the works. Id. If a plaintiff cannot
satisfy the extrinsic test, the complaint will be
dismissed. Campbell v. The Walt Disney Co., 718
F. Supp. 2d 1108, 1116 (N. D. Cal 2010). Malibu has
failed to allege any protectable elements that are
substantially similar between Malibu’s work and
H&M’s allegedly infringing shirt. The allegation that
the works are substantially similar is a mere legal
conclusion.
Further, Malibu has not proved any factual basis for
its claim that H&M is liable for contributory infringed
its copyright. Malibu conceded that there is no other
defendant that H&M could have helped to infringe
Malibu’s work.
Dismissal with prejudice is appropriate when
further amendment would be futile. Leadsinger, Inc. v.
BMG Music Publ’g, 512 F.3d 522, 532 (9th Cir. 2008).

App. 21
Here, because Malibu has not provided any factual
basis for its bare legal conclusions, further amendment
would be futile. Thus dismissal with prejudice is
appropriate.
IT IS HEREBY ORDERED that defendant H&M’s
motion to dismiss is GRANTED with prejudice.
Dated: June 3, 2014.

s/__________________________________
MANUEL L. REAL
UNITED STATES DISTRICT JUDGE

App. 22

APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CASE NO. CV 14-1018-R
[Filed June 29, 2017]
______________________________________
MALIBU TEXTILES, INC., a New York )
Corporation,
)
)
Plaintiff,
)
)
v.
)
)
H&M HENNES & MAURITZ L.P.,
)
a New York Limited Partnership;
)
and DOES 1 through 10,
)
)
Defendants.
)
______________________________________ )
ORDER GRANTING DEFENDANT’S MOTION TO
DISMISS PLAINTIFF’S FIRST AMENDED
COMPLAINT
Before the Court is Defendant H&M Hennes &
Mauritz’s (“H&M”) Motion to Dismiss (Dkt. No. 51)
which was filed on March 15, 2017. Having been fully
briefed, this Court took the matter under submission
on April 26, 2017.

App. 23
Dismissal under Federal Rule of Civil Procedure
12(b)(6) is proper when a complaint exhibits either “the
lack of a cognizable legal theory or the absence of
sufficient facts alleged under a cognizable legal theory.”
Balistreri v. Pacifica Police Dept., 901 F.2d 696, 699
(9th Cir. 1988). Under the heightened pleading
standards of Bell Atlantic Corp. v. Twombly, 550 U.S.
544 (2007) and Ashcroft v. Iqbal, 556 U.S. 662 (2009),
a plaintiff must allege “enough facts to state a claim to
relief that is plausible on its face,” so that the
defendant receives “fair notice of what the…claim is
and the grounds upon which it rests.” Twombly, 550
U.S. at 570. The plaintiff must plead factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.
Iqbal, 556 U.S. at 678. Courts will not accept
“threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements. . . .”
Id. “All allegations of material fact are taken as true
and construed in the light most favorable to the
nonmoving party.” Sprewell v. Golden State Warriors,
266 F.3d 979, 988 (9th Cir. 2001) (citation omitted).
This matter is before the Court after being
remanded from the Ninth Circuit with instructions to
allow Plaintiff to amend its complaint. Previously, this
Court granted a motion to dismiss the Complaint. (Dkt.
No. 17). The Ninth Circuit held that the Complaint
failed to state a claim for copyright infringement, but
that the Plaintiff should be given the opportunity to
amend. Plaintiff was given the opportunity to amend
and now H&M comes before the Court to dismiss First
Amended Complaint (“FAC”). The FAC states one
cause of action, copyright infringement.

App. 24
To state a claim for copyright infringement, a
Plaintiff must plead “(1) ownership of a valid copyright,
and (2) copying of constituent elements of the work
that are original.” Feist Publ’ns, Inc. v. Rural Tel. Serv.
Co., Inc., 499 U.S. 340, 361 (1991). A plaintiff may
establish copying by direct evidence or circumstantial
evidence “(1) that the defendant had access to the
plaintiff’s work and (2) that the two works are
substantially similar.” L.A. Printex Indus., Inc. v.
Aeropostale, Inc., 676 F.3d 841, 846 (9th Cir. 2012). If
a complaint fails to allege access, its copyright claim
may be saved if it alleges a striking similarity between
the two works. See Three Boys Music Corp. v. Bolton,
212 F.3d 477, 485 (9th Cir. 2000). Here, Plaintiff failed
to plead access and striking similarity. For the reasons
discussed below, the Motion is granted.
“Proof of access requires an opportunity to view or
to copy [the] plaintiff’s work.” Id. at 482 (internal
quotation and citation omitted). A plaintiff must
demonstrate “a reasonable possibility, not merely a
bare possibility, that an alleged infringer had the
chance to view the protected work.” Art Attacks Ink,
LLC v. MGA Entm’t Inc., 581 F.3d 1138, 1143 (9th Cir.
2009). There are two ways to allege access:
“(1) establishing a chain of events linking the plaintiff’s
work and the defendant’s access or (2) showing that the
plaintiff’s work has been widely disseminated.” Id.
The FAC and complaint contain virtually identical
allegations regarding access. The FAC alleges that
Defendants had access to the Subject Work via
Plaintiff’s showroom, illegally distributed copies of the
Subject Work by third parties, access to Plaintiff’s

App. 25
samples, and access to garments legally in the
marketplace containing the Subject Work. (FAC ¶ 21).
These allegations are not materially different than
those previously dismissed by this Court and upheld by
the Ninth Circuit. Such conclusory allegations are
nothing more than a speculative list of guesses as to
how Defendants may have accessed the Subject Work.
In fact, these are the same allegations rejected by the
court in Star Fabrics, Inc. v. Wet Seal, Inc., due to their
lack of “any concrete facts specifically linking the
[Defendant] to the protected design.” 2014 WL
12591271, at *4 (C.D. Cal. Dec. 2, 2014). Similarly,
Plaintiff fails to allege widespread dissemination in the
FAC. There are no allegations relating to distribution
in the FAC. Accordingly, Plaintiff’s FAC fails to allege
a plausible claim of access.
The test for substantial similarity entails an
extrinsic and intrinsic test. On a motion to dismiss,
however, courts only consider the extrinsic test. See
Funky Films, Inc. v. Time Warner Entm’t Co., L.P., 462
F.3d 1072, 1077 (9th Cir. 2006). “The extrinsic test is
an objective comparison of specific expressive elements;
it focuses on the articulable similarities between the
two works.” L.A. Printex Indus., Inc., 676 F.3d at 848
(internal quotations and citation omitted). When
applying the extrinsic test, courts must distinguish
between protectable and non-protectable elements of
the protected work and consider only whether the
protectable elements are substantially or strikingly
similar. Id.
Here, the protectable elements of the Subject Work
include the arrangement, selection, coordination of the

App. 26
Bengal Clockvine flower featured in the lace design.
However, the “floral pattern depicting bouquets and
branches is not protectible [sic]” nor is the
“combination of open flowers and closed buds in a
single bouquet or the green color of stems and leaves.”
Id. at 850. The Subject Work contains both protectable
and non-protectable elements. The majority of the
similarity between the Subject Work and the allegedly
infringing work come from non-protectable elements.
For example, Plaintiff alleges that the five-petaled
flower in both works contain the same leaf elements
with the same patterns and indentations in the petals.
The flower and its petals are non-protectable because
they are merely the natural appearance of a Bengal
Clockvine flower. The Bengal Clockvine flower contains
five-petal leaf elements with indentations at the tips of
each petal in its natural form. The non-protectable fivepetal flowers make up the majority of the similarities
between the two works. Plaintiff does point to
additional similarities, but like the Bengal Clockvine,
most are non-protectable. Furthermore, there are
objective differences between the two works. For
example, the two pictures examined in Paragraph 12 of
the FAC reveal marked differences. The Subject Work
contains thicker, more sloped boteh shapes to the left
of the image whereas the Defendant’s design contain
thin, more vertical boteh shapes. Additionally, the lace
netting is much tighter in the Subject Work than in the
Defendant’s design. Accordingly, the Court finds that
the two works do not contain strikingly similar
protectable elements. As such, the FAC has failed to
allege copying.

App. 27
Because the FAC fails to plead access and striking
similarity, it has not stated a legally cognizable claim
for copyright infringement. Accordingly, dismissal is
appropriate under Rule 12(b)(6).
IT IS HEREBY ORDERED that Defendant’s
Motion to Dismiss (Dkt. No. 37) is GRANTED.
Dated: June 29, 2017.

s/__________________________________
MANUEL L. REAL
UNITED STATES DISTRICT JUDGE

App. 28

APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CASE NO. CV 14-01018-R
[Filed July 22, 2014]
______________________________________
MALIBU TEXTILES, INC., a New York )
Corporation,
)
)
Plaintiff,
)
)
v.
)
)
H&M HENNES & MAURITZ L.P.,
)
a New York Limited Partnership;
)
and DOES 1–10,
)
)
Defendants.
)
______________________________________ )
ORDER DENYING DEFENDANT H&M HENNES &
MAURITZ L.P.’s MOTION FOR ATTORNEY’S FEES
AND DENYING PLAINTIFF MALIBU TEXTILES,
INC.’S MOTION FOR RECONSIDERATION
Plaintiff Malibu Textiles, Inc. (“Malibu”), on
February 10, 2014, filed a copyright and contributory
copyright infringement suit against defendant H&M
Hennes & Mauritz L.P. (“H&M”). H&M filed a motion
to dismiss Malibu’s Complaint on March 25, 2014. On

App. 29
June 3, 2014, this Court dismissed Malibu’s complaint
with prejudice. Subsequently, on June 16, 2014, Malibu
filed a motion for reconsideration. On June 17, 2014,
H&M filed a motion for attorney’s fees. Having been
thoroughly briefed by both parties, this Court took the
matters under submission on July 11, 2014.
I. Motion for Reconsideration
Reconsideration of an order is appropriate when the
court has committed clear error. Kona Enters., Inc. v.
Estate of Bishop, 229 F.3d 877, 890 (9th Cir. 2000).
Malibu argues that it can cure all the defects in its
complaint, and should have been granted leave to
amend. Malibu does not move for reconsideration
under any of the rules of procedure, but under the
court’s inherent authority to amend its orders.
Malibu failed to plead the most basics elements of
any copyright infringement suit. Malibu failed to plead
a valid copyright ownership, Malibu admitted H&M
had no direct access to its work, Malibu failed to allege
how the works were substantially similar, and Malibu
failed to allege any other defendant in connection with
its contributory and vicarious liability copyright
infringement claim.
The standard for a complaint to survive a motion to
dismiss is well settled: the trial court takes all
well-pleaded facts in the complaint to be true and
determines whether, based upon those facts, the
complaint states a claim upon which relief may be
granted. Fed. R. Civ. P. 12(b)(6). See Alperin v. Vatican
Bank, 410 F.3d 532, 541 (9th Cir. 2005). To state a
claim, the complaint must contain factual assertions

App. 30
that make the claimed relief not merely possible, but
“plausible.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009);
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007). Although factual assertions are taken as true,
the court does not accept legal conclusions as true. Id.
Dismissal with prejudice is appropriate when further
amendment would be futile. Leadsinger, Inc. v. BMG
Music Publ’g, 512 F.3d 522, 532 (9th Cir. 2008).
A plaintiff must allege that the infringer either had
access to the plaintiff’s work or that it was widely
disseminated. Nimmer & Nimmer, NIMMER ON
COPYRIGHT § 13.02. Malibu admits the H&M did not
have direct access to its work. Further, Malibu pled no
facts that the work was widely disseminated, merely
that they had sent out copies of the pattern in a pattern
book to people other than H&M. It is well settled that
this does not make a work widely disseminated, if
Malibu had any facts to support this, they would have
been included in the complaint.
Instead, Malibu relied on how similar the works
allegedly are. This is inapposite, when the work is a
pattern of the naturally occurring clockvine flower.
Naturally occurring depictions and features are not
copyrightable, thus Malibu’s copyright is “thin” and
does not extend to the natural features of the clockvine
flower. See Satava v. Lowry, 323 F. 3d 805, 811–12 (9th
Cir. 2003). Given this along with predating (to Malibu’s
copyright) clockvine patterns in the public domain, the
failure to plead direct access is fatal.
Moreover, given the thin copyright given to
depictions of nature, even ignoring the extensive public
domain clockvine patterns, the failure to plead

App. 31
substantial similarity is even more egregious. The
patterns are not actually the same despite Malibu’s
claim that H&M’s is an exact replica. Malibu’s pattern
is two-tone, H&M’s pattern has one tone. The stigmas
of the clockvine flower are shaped differently. The
vines themselves are shaped differently, and the
spacing between the various elements are of different
proportions. Malibu’s pattern has vine segments that
are not in H&M’s pattern. They are clearly not exact or
identical as Malibu bare legal assertion claims. Malibu
failed to plead substantial similarity, because once the
uncopyrightable depictions of nature and public domain
elements of its work are removed, there is little left.
Taking the facts in Malibu’s complaint as true,
Malibu cannot cure its complaint so granting leave to
amend would be futile. Unless Malibu is now claiming
that it will assert facts inconsistent with its initial
complaint, Malibu will not be able to show access, nor
be allowed to draw an inference as such because of thin
nature of its copyright.
II. Motion for Attorney’s Fees
The Copyright Act, 17 U.S.C. § 505, provides that
the court may award a reasonable attorney’s fee to the
prevailing party. This provision has two steps:
(1) deciding whether an award of attorney’s fees is
appropriate; and (2) calculating the amount of fees to
be awarded. Traditional Cat Ass’n v. Gilbreath, 340
F. 3d 829, 832–33 (9th Cir. 2003). Factors to be
considered in determining whether attorney’s fees are
appropriate are: (1) the degree of success;
(2) frivolousness of the claim; (3) motivation of the
claim; (4) objective reasonableness; and (5) the need to

App. 32
advance the considerations of compensation and
deterrence. Fogerty v. Fantasy, Inc., 510 U.S. 517, 534
(1994).
There is no evidence that Malibu’s motivation was
improper in this case. Malibu’s refusal to settle the
case early on, is not itself evidence of bad faith.
Further, defendant H&M has benefitted from Malibu’s
poor complaint in that H&M was able to achieve
dismissal of the suit early in the case. This Court finds
that because H&M was able to resolve this case before
summary judgment and a lack of demonstrated bad
faith or egregious conduct on behalf of Malibu,
attorney’s fees are not appropriate in this case.
IT IS HEREBY ORDERED that plaintiff Malibu’s
motion for reconsideration is DENIED.
IT IS HEREBY FURTHER ORDERED that
defendant H&M’s motion to for attorney’s fees is
DENIED.
Dated: July 22, 2014.
s/__________________________________
MANUEL L. REAL
UNITED STATES DISTRICT JUDGE

App. 33

APPENDIX E
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 14-56203
D.C. No. 2:14-cv-01018-R-E
[Filed September 13, 2016]
______________________________________
MALIBU TEXTILES, INC., a New York )
corporation,
)
Plaintiff-Appellant,
)
)
v.
)
)
H&M HENNES & MAURITZ, L.P.,
)
a New York limited partnership,
)
Defendant-Appellee.
)
______________________________________ )

App. 34
No. 14-56253
D.C. No. 2:14-cv-01018-R-E
___________________________________
MALIBU TEXTILES, INC.,
)
a New York corporation,
)
Plaintiff-Appellee,
)
)
v.
)
)
H&M HENNES & MAURITZ, L.P.,
)
a New York limited partnership,
)
Defendant-Appellant.
)
___________________________________ )
MEMORANDUM*
Appeal from the United States District Court
for the Central District of California
Manuel L. Real, District Judge, Presiding
Argued and Submitted September 1, 2016
Pasadena, California
Before:
SILVERMAN, IKUTA, and WATFORD,
Circuit Judges.
1. The district court erred by granting H&M’s
motion to dismiss with prejudice. Although Malibu did
not plead sufficient facts to state a claim for copyright
infringement, the district court abused its discretion by
denying Malibu the opportunity to amend its
complaint. Dismissal with prejudice is appropriate
*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 35
only if the complaint “could not be saved by any
amendment.” Leadsinger, Inc. v. BMG Music Publ’g,
512 F.3d 522, 532 (9th Cir. 2008). Here, that is not the
case.
To state a claim for copyright infringement, Malibu
first had to allege facts plausibly showing ownership of
a valid copyright. See Sid & Marty Krofft Television v.
McDonald’s Corp., 562 F.2d 1157, 1162 (9th Cir. 1977).
The district court held that Malibu failed to plausibly
allege ownership because it did not include a copyright
registration number in its complaint. Assuming for the
sake of argument that the registration number must be
pleaded in the complaint, Malibu’s failure to do so
cannot be deemed fatal. Malibu could of course have
amended the complaint to include the copyright
registration number.
Malibu next had to allege facts plausibly showing
that H&M copied the protected elements in Malibu’s
work. Three Boys Music Corp. v. Bolton, 212 F.3d 477,
481 (9th Cir. 2000). A plaintiff may satisfy this
element by showing either that the two works in
question are strikingly similar, or by showing that they
are substantially similar and that the defendant had
access to the plaintiff’s work. Id. at 481, 485. In the
absence of direct evidence of access, a plaintiff can
show that a chain of events linked the protected work
to the defendant, or that the work had been widely
disseminated. Id. at 482. Malibu’s complaint did not
adequately allege copying of a protected work under
any of these theories.
However, Malibu potentially could have amended
its complaint to cure this deficiency in several ways.

App. 36
To allege striking or substantial similarity, Malibu
could have described the pattern’s protectible
elements—such as the selection, coordination, and
arrangement of flowers, leaves, and branches—and
identified those same elements in H&M’s garment,
perhaps with reference to photos showing a
side-by-side comparison of the works. See L.A. Printex
Indus., Inc. v. Aeropostale, Inc., 676 F.3d 841, 850 (9th
Cir. 2012). To allege access, Malibu could have pleaded
facts showing a chain of events that linked the pattern
with H&M, or provided sales figures accompanied by
dates and geographic distribution information
plausibly showing access via widespread dissemination.
Because these allegations could cure the complaint’s
deficiencies, the district court’s conclusion that
amendment would be futile was incorrect.
2. We affirm the district court’s denial of H&M’s
motion for attorney’s fees. Because H&M is no longer
a prevailing party at this stage of the litigation, it is
not eligible for attorney’s fees under 17 U.S.C. § 505.
See Electro Source, LLC v. Brandess-Kalt-Aetna Group,
Inc., 458 F.3d 931, 941 (9th Cir. 2006).
AFFIRMED in part, REVERSED in part, and
REMANDED.
The parties shall bear their own costs on appeal.

App. 37

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-55984
D.C. No. 2:14-cv-01018-R-E
Central District of California, Los Angeles
[Filed May 31, 2019]
______________________________________
MALIBU TEXTILES, INC., a New York )
corporation,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
H&M HENNES & MAURITZ, L.P.,
)
a New York limited partnership,
)
)
Defendant-Appellee.
)
______________________________________ )
ORDER
Before: TASHIMA and WATFORD, Circuit Judges, and
ZOUHARY,* District Judge.

*

The Honorable Jack Zouhary, United States District Judge for
the Northern District of Ohio, sitting by designation.

App. 38
Judge Watford votes to deny the petition for
rehearing en banc, and Judges Tashima and Zouhary
so recommend. The full court has been advised of the
petition for rehearing en banc, and no judge requested
a vote on whether to rehear the matter en banc. Fed. R.
App. P. 35. The petition for rehearing en banc, filed
May 8, 2019, is DENIED.

App. 39

APPENDIX G
STATUTORY PROVISIONS INVOLVED
17 U.S.C. § 102. Subject matter of copyright: In
general
(a) Copyright protection subsists, in accordance with
this title, in original works of authorship fixed in any
tangible medium of expression, now known or later
developed, from which they can be perceived,
reproduced, or otherwise communicated, either directly
or with the aid of a machine or device. Works of
authorship include the following categories:
(1) literary works;
(2) musical works, including any accompanying words;
(3) dramatic works, including any accompanying music;
(4) pantomimes and choreographic works;
(5) pictorial, graphic, and sculptural works;
(6) motion pictures and other audiovisual works;
(7) sound recordings; and
(8) architectural works.
(b) In no case does copyright protection for an original
work of authorship extend to any idea, procedure,
process, system, method of operation, concept,
principle, or discovery, regardless of the form in which

App. 40
it is described, explained, illustrated, or embodied in
such work.
17 U.S.C. § 103. Subject matter of copyright:
Compilations and derivative works
(a) The subject matter of copyright as specified by
section 102 includes compilations and derivative works,
but protection for a work employing preexisting
material in which copyright subsists does not extend to
any part of the work in which such material has been
used unlawfully.
(b) The copyright in a compilation or derivative work
extends only to the material contributed by the author
of such work, as distinguished from the preexisting
material employed in the work, and does not imply any
exclusive right in the preexisting material. The
copyright in such work is independent of, and does not
affect or enlarge the scope, duration, ownership, or
subsistence of, any copyright protection in the
preexisting material.
17 U.S.C. § 104. Subject matter of copyright:
National origin
(a) Unpublished Works.—The works specified by
sections 102 and 103, while unpublished, are subject to
protection under this title without regard to the
nationality or domicile of the author.
(b) Published Works.—The works specified by sections
102 and 103, when published, are subject to protection
under this title if—

App. 41
(1) on the date of first publication, one or more of the
authors is a national or domiciliary of the United
States, or is a national, domiciliary, or sovereign
authority of a treaty party, or is a stateless person,
wherever that person may be domiciled; or
(2) the work is first published in the United States or
in a foreign nation that, on the date of first publication,
is a treaty party; or
(3) the work is a sound recording that was first fixed in
a treaty party; or
(4) the work is a pictorial, graphic, or sculptural work
that is incorporated in a building or other structure, or
an architectural work that is embodied in a building
and the building or structure is located in the United
States or a treaty party; or
(5) the work is first published by the United Nations or
any of its specialized agencies, or by the Organization
of American States; or
(6) the work comes within the scope of a Presidential
proclamation. Whenever the President finds that a
particular foreign nation extends, to works by authors
who are nationals or domiciliaries of the United States
or to works that are first published in the United
States, copyright protection on substantially the same
basis as that on which the foreign nation extends
protection to works of its own nationals and
domiciliaries and works first published in that nation,
the President may by proclamation extend protection
under this title to works of which one or more of the
authors is, on the date of first publication, a national,
domiciliary, or sovereign authority of that nation, or

App. 42
which was first published in that nation. The President
may revise, suspend, or revoke any such proclamation
or impose any conditions or limitations on protection
under a proclamation.
For purposes of paragraph (2), a work that is published
in the United States or a treaty party within 30 days
after publication in a foreign nation that is not a treaty
party shall be considered to be first published in the
United States or such treaty party, as the case may be.
(c) Effect of Berne Convention.—No right or interest in
a work eligible for protection under this title may be
claimed by virtue of, or in reliance upon, the provisions
of the Berne Convention, or the adherence of the
United States thereto. Any rights in a work eligible for
protection under this title that derive from this title,
other Federal or State statutes, or the common law,
shall not be expanded or reduced by virtue of, or in
reliance upon, the provisions of the Berne Convention,
or the adherence of the United States thereto.
(d) Effect of Phonograms Treaties.—Notwithstanding
the provisions of subsection (b), no works other than
sound recordings shall be eligible for protection under
this title solely by virtue of the adherence of the United
States to the Geneva Phonograms Convention or the
WIPO Performances and Phonograms Treaty.

App. 43
17 U.S.C. § 501. Infringement of copyright
(a) Anyone who violates any of the exclusive rights of
the copyright owner as provided by sections 106
through 122 or of the author as provided in section
106A(a), or who imports copies or phonorecords into the
United States in violation of section 602, is an infringer
of the copyright or right of the author, as the case may
be. For purposes of this chapter (other than section
506), any reference to copyright shall be deemed to
include the rights conferred by section 106A(a). As used
in this subsection, the term “anyone” includes any
State, any instrumentality of a State, and any officer or
employee of a State or instrumentality of a State acting
in his or her official capacity. Any State, and any such
instrumentality, officer, or employee, shall be subject
to the provisions of this title in the same manner and
to the same extent as any nongovernmental entity.
(b) The legal or beneficial owner of an exclusive right
under a copyright is entitled, subject to the
requirements of section 411, to institute an action for
any infringement of that particular right committed
while he or she is the owner of it. The court may
require such owner to serve written notice of the action
with a copy of the complaint upon any person shown,
by the records of the Copyright Office or otherwise, to
have or claim an interest in the copyright, and shall
require that such notice be served upon any person
whose interest is likely to be affected by a decision in
the case. The court may require the joinder, and shall
permit the intervention, of any person having or
claiming an interest in the copyright.

App. 44
(c) For any secondary transmission by a cable system
that embodies a performance or a display of a work
which is actionable as an act of infringement under
subsection (c) of section 111, a television broadcast
station holding a copyright or other license to transmit
or perform the same version of that work shall, for
purposes of subsection (b) of this section, be treated as
a legal or beneficial owner if such secondary
transmission occurs within the local service area of
that television station.
(d) For any secondary transmission by a cable system
that is actionable as an act of infringement pursuant to
section 111(c)(3), the following shall also have standing
to sue: (i) the primary transmitter whose transmission
has been altered by the cable system; and (ii) any
broadcast station within whose local service area the
secondary transmission occurs.
(e) With respect to any secondary transmission that is
made by a satellite carrier of a performance or display
of a work embodied in a primary transmission and is
actionable as an act of infringement under section
119(a)(5),[1] a network station holding a copyright or
other license to transmit or perform the same version
of that work shall, for purposes of subsection (b) of this
section, be treated as a legal or beneficial owner if such
secondary transmission occurs within the local service
area of that station.
(f)
(1) With respect to any secondary transmission that is
made by a satellite carrier of a performance or display
of a work embodied in a primary transmission and is

App. 45
actionable as an act of infringement under section 122,
a television broadcast station holding a copyright or
other license to transmit or perform the same version
of that work shall, for purposes of subsection (b) of this
section, be treated as a legal or beneficial owner if such
secondary transmission occurs within the local market
of that station.
(2) A television broadcast station may file a civil action
against any satellite carrier that has refused to carry
television broadcast signals, as required under section
122(a)(2), to enforce that television broadcast station’s
rights under section 338(a) of the Communications Act
of 1934.

